TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           To Address Its Human Capital
                          Challenge, the Internal Revenue
                            Service Needs to Focus on
                                  Four Key Areas



                                         August 19, 2009

                              Reference Number: 2009-10-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     August 19, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – To Address Its Human Capital Challenge, the
                                  Internal Revenue Service Needs to Focus on Four Key Areas
                                  (Audit # 200910011)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) human
 capital1 challenge. Our objective was to assess the IRS’ actions in addressing its human capital
 challenge and was based upon prior Treasury Inspector General for Tax Administration and
 Government Accountability Office reports and took into account current efforts underway at the
 IRS. This review is part of our Fiscal Year 2009 Annual Audit Plan coverage under the major
 management challenge of Human Capital and is part of our broad strategy for assessing the IRS’
 human capital efforts at the agency-wide level.

 Impact on the Taxpayer
 The IRS has experienced workforce challenges over the past few years, including recruiting,
 training, and retaining employees, as well as an increasing number of employees who are eligible
 to retire. While the IRS has recently increased its focus on workforce issues, we believe the IRS
 will have to address several key areas to make progress in addressing its human capital
 challenge. If the IRS is not successful, it may not have the right people in the right place at the




 1
     Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



right time to achieve its mission of providing taxpayers with top quality service and enforcing
the law with integrity and fairness to all.2

Synopsis
The IRS faces a loss of leadership and technical employees that could threaten its ability to
provide American taxpayers with the service they have come to expect. Today, the IRS has
approximately 106,000 employees, including 9,100 managers. However, more than half of the
IRS’ employees and managers have reached age 50, and 39 percent of IRS executives are already
eligible for retirement. To fill the projected shortage in leadership ranks, the IRS has stated that
it must recruit one manager a day for the next 10 years. Furthermore, the rate at which new
recruits are leaving the IRS during the first and second year of employment has increased since
Fiscal Year 2005.3 The pending loss of institutional knowledge and expertise at all levels and the
challenge of retaining a highly skilled workforce increase the risk that the IRS may not be able to
achieve its mission.
The IRS’ challenge of having the right people in the right place at the right time is made more
difficult by many complex internal and external factors. Future IRS leaders will need to be more
proactive, embrace change, and think on a larger scale. In addition, the work performed by
IRS employees continually requires greater expertise as tax laws become more complex, manual
systems used to support tax administration become computer based, and attempts by taxpayers
and tax practitioners to evade compliance with the tax laws become more sophisticated. The IRS
must also compete with other Government agencies and private industry for the same human
resources, complicated by the fact that younger generations of employees move between jobs
more frequently than employees in the past. Furthermore, budget constraints, legislative
changes, and economic shifts can create unforeseen challenges for the IRS in addressing its
long-term human capital issues. However, the recent surge of college graduates’ interest in
Federal employment, resulting from unemployment in the private sector and a call to public
service by the President, presents an opportunity for the IRS to invigorate its workforce with new
skills and energy.
As part of our first periodic assessment of the IRS’ actions to address its human capital
challenge, we determined that the IRS is currently taking significant actions to address workforce
issues, such as the creation of the IRS Commissioner’s Workforce of Tomorrow Task Force, the
creation of the Centralized Recruiting Office, and the incorporation of human capital strategies
and high-level measures in the IRS 2009–2013 Strategic Plan. However, our reviews show that
the IRS will need to address four key areas to make progress in addressing its human capital


2
  The IRS’ mission is to “provide America’s taxpayers top quality service by helping them understand and meet
their tax responsibilities and enforce the law with integrity and fairness to all.”
3
  See Appendix IV for additional trends regarding the IRS’ workforce.
                                                                                                                2
                              To Address Its Human Capital Challenge, the
                      Internal Revenue Service Needs to Focus on Four Key Areas



challenge. Namely, IRS executive management will need to 1) lead the agency to act as
“one IRS” to strategically address its human capital issues, 2) balance the need for a more
strategic focus on human capital issues with the need to continue addressing day-to-day issues
that affect the IRS workforce, 3) evaluate the success of human capital initiatives and make
adjustments as necessary, and 4) build upon the momentum gained through the IRS’ recent
emphasis on human capital issues.
For example, our previous reviews found:
    •    The IRS lacked comprehensive, agency-wide information on the skills of its employees
         in mission critical occupations.4 This information is required to effectively assess current
         and future workforce needs.
    •    The IRS had not determined the overall leadership strength of each operating division nor
         developed the data necessary to obtain an agency-wide perspective about leadership
         strength and potential needs.
    •    The IRS did not have an agency-wide recruitment strategy that included a long-term plan
         for all functions involved in recruiting.
    •    Substantial progress had not been made in developing and implementing an agency-wide
         process to consistently and accurately project future human resource needs. In addition,
         projections were usually made only for the following fiscal year.
While the IRS is currently taking significant actions to focus on human capital issues, including
actions to address our prior recommendations, there is much work ahead. Due to the long-term
nature of human capital management and its importance to the accomplishment of the
IRS’ mission, we will continue to monitor the IRS’ progress in addressing this challenge.

Response
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance and agreed with the facts and conclusions presented.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




4
 Mission critical occupations are those positions essential to front-line enforcement or in direct support to front-line
operations needed to meet the IRS goals.
                                                                                                                       3
                                 To Address Its Human Capital Challenge, the
                         Internal Revenue Service Needs to Focus on Four Key Areas




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Focus Is Needed on Four Key Areas to Successfully Address the
          Human Capital Challenge .............................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Trends Regarding the Internal Revenue Service
          Workforce .....................................................................................................Page 15
          Appendix V – Government Accountability Office Human Capital
          Reports Researched As Part of This Review ................................................Page 21
          Appendix VI – Treasury Inspector General for Tax Administration
          Human Capital Reports Considered As Part of This Review .......................Page 23
          Appendix VII – Internal Revenue Service Human Capital Office and
          Embedded Offices Organizational Structure ................................................Page 24
          Appendix VIII – The Office of Personnel Management’s Human Capital
          Assessment and Accountability Framework.................................................Page 25
          Appendix IX – Workforce of Tomorrow Task Force Teams and
          Sample Accomplishments.............................................................................Page 27
                To Address Its Human Capital Challenge, the
        Internal Revenue Service Needs to Focus on Four Key Areas




                      Abbreviations

GAO             Government Accountability Office
HCO             Human Capital Office
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas




                                            Background

The Internal Revenue Service (IRS) faces a loss of
                                                                 To fill the projected shortage in
leadership and technical employees that could threaten            leadership, the IRS has stated
its ability to provide American taxpayers the service           that it must recruit one manager
they have come to expect. Today, the IRS has                        a day for the next 10 years.
approximately 106,000 employees, including
9,100 managers.1 However, more than half of the
IRS’ employees and managers have reached age 50, and 39 percent of IRS executives are already
eligible for retirement. To fill the projected shortage in leadership, the IRS has stated that it must
recruit one manager a day for the next 10 years. Furthermore, the rate at which new recruits in
mission critical occupations are leaving the IRS during the first and second year of employment
has increased since Fiscal Year 2005.2 The pending loss of institutional knowledge and expertise
at all levels and the challenge of retaining a highly skilled workforce increase the risk that the
IRS may not be able to achieve its mission.3
The IRS’ challenge of having the right people in the right place at the right time is made more
difficult by many complex internal and external factors. Future IRS leaders will need to be more
proactive, embrace change, and think on a larger scale. In addition, the work performed by
IRS employees continually requires greater expertise as tax laws become more complex, manual
systems used to support tax administration become computer based, and attempts by taxpayers
and tax practitioners to evade compliance with the tax laws become more sophisticated. The IRS
must also compete with other Government agencies and private industry for the same human
resources, complicated by the fact that younger generations of employees move between jobs
more frequently than employees in the past. Furthermore, budget constraints, legislative
changes, and economic shifts can create unforeseen challenges for the IRS in addressing its
long-term human capital4 issues. However, the recent surge of college graduates’ interest in
Federal employment, resulting from unemployment in the private sector and a call to public
service by the President, presents an opportunity for the IRS to invigorate its workforce with new
skills and energy.
The IRS is not alone in its struggle to address strategic human capital management. In
January 2009, the Government Accountability Office (GAO) continued to identify strategic


1
  The Human Capital Office Strategic Planning and Measures Division provided data as of February 14, 2009.
2
  See Appendix IV for additional trends regarding the IRS’ workforce.
3
  The IRS’ mission is to “provide America’s taxpayers top quality service by helping them understand and meet
their tax responsibilities and enforce the law with integrity and fairness to all.”
4
  Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
                                                                                                          Page 1
                            To Address Its Human Capital Challenge, the
                    Internal Revenue Service Needs to Focus on Four Key Areas



human capital management as a high-risk area within the Federal Government.5 The GAO
designates areas as high risk due to their vulnerability to fraud, waste, abuse, and
mismanagement, or the need for broad-based transformation of key government programs and
operations. This area remains high risk because of a continuing need for a government-wide
framework to advance human capital reform; therefore, agencies need to take actions to help
address the complex challenges. Specifically, 1) top agency leaders must commit to addressing
human capital and related organizational transformation issues; 2) human capital planning efforts
need to be fully integrated with mission and critical program goals; 3) continued efforts are
needed to improve recruiting, hiring, professional development, and retention strategies to ensure
agencies have the talent they need; and 4) organizational cultures need to promote high
performance and accountability, empower employees in setting and accomplishing program
goals, and ensure diversity at all levels of the workforce.
The Treasury Inspector General for Tax Administration (TIGTA) has designated human capital
as one of the top 10 major management challenges facing the IRS. Along with the TIGTA, the
IRS Oversight Board6 has expressed concern with the state of IRS human capital efforts. For
example, the Board noted in its 2006 and 2007 annual reports that human capital is one of the
IRS’ greatest resources and biggest challenges and that it merits greater attention and increased
focus by IRS management.
The IRS Commissioner recognizes the need for greater attention to human capital. The
Commissioner established the Workforce of Tomorrow Task Force to address recruitment and
retention issues so that the IRS has the necessary leadership and workforce in place to address
future challenges. Additionally, the IRS 2009–2013 Strategic Plan contains human capital goals.
Responsibility for human capital within the IRS has evolved since the agency completed its
reorganization in October 2000. Each business unit had embedded human resources offices that
performed their own human capital functions. The IRS’ Human Capital Office (HCO) was
created in July 2003, with the appointment of the Chief Human Capital Officer. The HCO was
positioned under the Deputy Commissioner for Operations Support, to provide human capital
strategies and tools for recruiting, hiring, developing, retaining, and transitioning a highly skilled
and high-performing workforce to support IRS mission accomplishments. However, the
business units’ embedded offices still exist under the Deputy Commissioner for Services and



5
  High Risk Series: An Update (GAO-09-271, dated January 2009). The GAO’s high-risk status reports are provided
at the start of each new Congress and list areas within the Federal Government requiring further Congressional
oversight and enactment of a series of government-wide reforms to address critical human capital challenges;
strengthen financial management; improve information technology practices; and help promote a more effective,
credible, and results-oriented government. See Appendix V for additional GAO reports we reviewed as part of this
audit.
6
  The IRS Oversight Board is a nine-member independent body charged to oversee the IRS in its administration,
management, conduct, direction, and supervision of the execution and application of the internal revenue laws.
                                                                                                        Page 2
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



Enforcement to help local managers with human resource issues. Appendix VII shows an
organizational chart of the human capital offices.
Beginning in Fiscal Year 2008, the TIGTA developed a broad audit strategy for addressing
human capital at an IRS agency-wide level using the Human Capital Assessment and
Accountability Framework7 as a guide. This review is the TIGTA’s first periodic assessment of
the IRS’ progress in addressing its human capital challenge and includes our opinions based on
multiple audits we have conducted.8
This review was conducted while the IRS was taking actions to address its human capital
challenge, e.g., completing the work of a task force designed to make the IRS the best place to
work in Government and ensure that in 5 years the IRS will have the leadership and workforce
ready for the next 15 years. As a result, this report may not reflect the most current status of the
IRS’ activities to address its human capital challenge.
This review was performed at the Office of the Commissioner Headquarters in the Workforce
Initiatives Division in Washington, D.C., and the IRS Human Capital Office Headquarters in
Washington, D.C., during the period February through May 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
  The Framework was established by the United States Office of Personnel Management. It provides consolidated
guidance for agencies to transform human capital management and understand what is to be done, how it can be
done, and how to gauge progress and results. It also presents the expectations that guide the agency’s assessment of
human capital efforts. This Framework consists of six standards for success or the results to be achieved. See
Appendix VIII for more information.
8
  See Appendix VI for additional details on audit reports.
                                                                                                            Page 3
                          To Address Its Human Capital Challenge, the
                  Internal Revenue Service Needs to Focus on Four Key Areas




                                Results of Review

Focus Is Needed on Four Key Areas to Successfully Address the
Human Capital Challenge
In May 2009, the IRS Commissioner testified that all of the IRS’ efforts to deliver effective tax
administration depend upon its workforce. The IRS must ensure it has talented capable leaders
and employees for the foreseeable future with the right tools and resources they need to succeed.
The IRS is currently taking significant actions to address some of its workforce issues; however,
our reviews show that the IRS will need to address four key areas to make progress in addressing
its human capital challenge. Namely, IRS executive management will need to: 1) lead the
agency to act as “one IRS” to strategically address its human capital issues; 2) balance the need
for a more strategic focus on human capital issues with the need to continue addressing
day-to-day issues that affect the IRS workforce; 3) evaluate the success of human capital
initiatives and make adjustments as necessary; and 4) build upon the momentum gained through
the IRS’ recent emphasis on human capital issues.

IRS executive management must lead the agency to act as “one IRS” to
strategically address its human capital issues
The Office of Personnel Management’s first critical success factor in its human capital standards
for success is that agencies design a coherent framework of human capital policies, programs,
and practices to achieve a shared vision integrated with
the agency’s strategic plan. This is vital because it can
help integrate workforce planning efforts with other key         Human capital efforts have
management planning efforts. While the IRS had                    not always been strategic
                                                                  in nature, or coordinated.
developed a Human Capital Strategic Plan and had
procedures in place to ensure management from key
areas within the IRS were involved in human capital decisions, we determined different
segments of the IRS were operating independently or were not coordinating their human capital
efforts. This could lead to disjointed efforts and an ineffective use of resources. In addition,
human capital efforts were often focused solely on the short-term, instead of focusing on both the
short-term and the long-term. For example:
   •   The IRS did not have an agency-wide recruitment strategy that included a long-term plan
       for all functions involved in recruiting. Recruiting activities were based upon annual
       hiring plans instead of long-term workforce planning.



                                                                                           Page 4
                              To Address Its Human Capital Challenge, the
                      Internal Revenue Service Needs to Focus on Four Key Areas



    •    The IRS lacked comprehensive, agency-wide information on the skills of its employees
         in mission critical occupations.9 This information is required to effectively assess current
         and future workforce needs. The lack of employee skills information was primarily
         attributable to the absence of a corporate methodology for the uniform collection,
         compilation, and analyses of skills data across the agency to fully measure its workforce
         against future skills needs.
    •    The IRS did not have a clearly defined strategy for leadership succession with a well
         documented plan that specified key actions to be taken to implement the plan.
    •    Limited progress had been made in developing and implementing an agency-wide
         process to consistently and accurately project future human resource needs. The
         IRS HCO and the business units/functional offices had not fully implemented a strategic
         approach to workforce planning because corporate processes for creating and monitoring
         projections of retirements and other separations did not exist. Limited projections were
         usually made only for the following fiscal year and were primarily motivated by the need
         to obtain approval for the following year’s budget to hire additional resources.
One reason for the lack of a consistent agency-wide focus on human capital issues in the past is
that human capital responsibilities were decentralized within the IRS. Human capital
responsibilities are still shared with personnel decentralized in the IRS’ business units and
functional offices. While steps have been taken, the IRS has not completely transitioned to a
“one IRS” concept to ensure that all personnel responsible for human capital efforts work
together to implement strategies and initiatives. Consequently, conflicting interests among the
business units and functional offices resulted in disjointed efforts. The IRS also is not
consistently thinking about long-term workforce planning. As a result, the IRS may miss the
opportunity to shape its future workforce.
Actions the IRS Is Taking in the Area: While our prior audits have shown that the IRS has not
always acted as “one IRS” or addressed its human capital issues strategically, we have noted that
the IRS has recently taken actions to begin bringing about this change. For example:
    •    In September 2008, the IRS Commissioner created the Workforce of Tomorrow Task
         Force to address the human capital challenge. The Task Force was led from the
         Commissioner’s office and included representation from the IRS’ business units and
         functional offices, as well as the IRS HCO. The goal of this Task Force was to make the
         IRS the best place to work in the Federal Government and ensure that in 5 years the IRS




9
 Mission critical occupations are those positions essential to front-line enforcement or in direct support of front-line
operations needed to meet the IRS goals.
                                                                                                                Page 5
                            To Address Its Human Capital Challenge, the
                    Internal Revenue Service Needs to Focus on Four Key Areas



         will have the leadership and workforce ready for the next 15 years. The Task Force had
         six teams, and each was focused on a key aspect of the future IRS workforce.10
     •   In March 2009, the IRS created a Centralized Recruiting Office as a new division within
         the IRS HCO.
     •   In April 2009, the IRS 2009–2013 Strategic Plan was released with human capital goals.
         Although the IRS discussed human capital in its prior strategic plans, more emphasis has
         been placed on human capital as one of the Strategic Foundations in the current plan.
         The IRS incorporated four high-level human capital strategies in this plan to achieve its
         objective to make the IRS the best place to work in the Federal Government. These
         strategies are:
         o Attract and retain outstanding diverse talent throughout the IRS.
         o Increase employee engagement.
         o Identify, develop, invest in, and reward top-quality managers.
         o Reinforce a culture of diversity, teamwork, equal opportunity, and collaborative
           leadership.
In our opinion, these actions show intent by IRS executive management to address human capital
issues. However, since human capital responsibilities remain decentralized, IRS executive
management must continue to unite the agency under one vision to implement the strategies and
initiatives recently developed.

The IRS must balance the need for a more strategic focus on human capital
issues with the need to address day-to-day issues that affect the IRS workforce
While thinking and acting strategically on human capital issues is important, the IRS must also
address day-to-day issues that affect the IRS workforce. For example, our audits identified areas
that the IRS needed to address on a routine basis.
     •   The Internal Revenue Pay-for-Performance System was not adequately communicated to
         managers before it was implemented, causing opposition and decreasing morale. As a
         result, the IRS risked its ability to recruit, retain, and motivate highly skilled leaders.
     •   Additional controls were needed to address the potential widespread abuse of religious
         compensatory time. In March 2006, the IRS identified 42 employees with religious
         compensatory time balances between 101 and 305 hours, and 1 employee had a negative
         balance of 171 hours. We determined 18 (42 percent) of these 43 employees still had
         excessive balances (80 hours or more) as of February 2008. Additionally, about

10
  See Appendix IX for a listing of the Workforce of Tomorrow Task Force teams and a sample of reported
accomplishments.
                                                                                                         Page 6
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



         2.6 percent of all IRS employees had either a positive or negative religious compensatory
         time balance, including 86 employees that had balances we considered excessive.11
         Some Federal employees have abused this type of leave by using it for nonreligious
         purposes or by not routinely using it as required after it was earned in order to receive
         additional pay when they leave their jobs or retire.
     •   Control processes needed to be established to ensure that the IRS was not overpaying
         workers’ compensation benefits. We questioned more than $1 million in charges,
         including benefits that were paid subsequent to Social Security Administration records
         indicating claimants had died. If costs are not properly managed and increase
         significantly, obligations could ultimately affect the amount of money the IRS has
         available to spend on enhancing the delivery of service to the taxpaying public.
     •   Additional training for all managers on administration of sick leave was needed. The
         lack of compensation for unused sick leave at retirement has contributed to the higher
         amount of sick leave used by employees in the Federal Employees Retirement System.
         The lack of compensation for unused sick leave can adversely affect morale, productivity,
         and the IRS’ efforts to accomplish its mission.
Actions the IRS Is Taking in the Area: The IRS generally agreed with our recommendations and
provided adequate corrective actions to address the issues we reported. For example,
IRS management agreed to:
     •   Take actions to improve communication channels with employees before, during, and
         after implementing any new changes to the Internal Revenue Pay-for-Performance
         System. According to the IRS, this action was completed in October 2007.
     •   Revise IRS policies related to the use and management of religious compensatory time,
         and generate and monitor a semiannual report of excessive balances.
     •   Implement control processes for reviewing the accuracy of the workers’ compensation
         claims costs in chargeback reports,12 and seek reimbursement from the Department of
         Labor for benefits paid subsequent to claimants’ deaths.


11
   Generally, Office of Personnel Management guidance states that employees should be allowed to accumulate only
the number of hours needed to make up for previous or anticipated absences from work for religious observances.
IRS guidance further states that employees should not accumulate more religious compensatory time than they
would be expected to use within 120 days. For the purposes of this prior review, we considered 80 hours or more as
an excessive balance, which is 2 weeks, or one pay period.
12
   The Department of Labor Office of Workers’ Compensation Programs is responsible for claim adjudication and
payment of benefits. However, the Office of Workers’ Compensation Programs bills Federal Government agencies
for the amount of benefits paid on behalf of the agencies’ injured employees. These “chargeback billings” cover the
12-month expense period of July 1 to June 30 each year, and agencies pay the expenses from their appropriations or
operating revenues.
                                                                                                           Page 7
                               To Address Its Human Capital Challenge, the
                       Internal Revenue Service Needs to Focus on Four Key Areas



       •   Update sick leave policies, procedures, and training, and review negative sick leave
           balances and use the results to provide guidance for advancing sick leave and identifying
           abuse.
In our opinion, these actions adequately address the concerns raised in our prior reports.
Additionally, the Workforce of Tomorrow Task Force reported that it developed employee
recognition, career development, and other related strategies.13 IRS management should continue
addressing day-to-day human capital issues to keep IRS employees motivated and committed to
their positions in serving taxpayers.

The IRS must evaluate the success of its human capital initiatives and make
adjustments as necessary
Another key principle to effective strategic workforce planning
is to evaluate and monitor (i.e., measure and adjust) an agency’s               The IRS has not always
progress toward its human capital goals. However, human                           had the capability to
                                                                                measure the success of
capital measures that were developed in the past were not                      its human capital efforts.
always linked to strategic goals and, therefore, did not allow
IRS management to assess the progress of the agency’s human
capital efforts. For example:
       •   The IRS had not determined the overall leadership strength of each operating division,
           nor developed the data necessary to obtain an agency-wide perspective about leadership
           strength and potential needs. As a result, the IRS may not have the information it needs
           to make informed decisions on its future leaders, maintain operational continuity, and
           preserve public confidence in its ability to fulfill its mission.
       •   An agency-wide methodology was not in place to fully measure the IRS’ workforce
           against current and future skills. Without this information, the IRS can not develop
           strategies to close anticipated competency or skills gaps. Therefore, it is missing the
           opportunity to reshape its workforce to meet future challenges, which could adversely
           affect the quality of service provided to taxpayers.
       •   Performance measures were not in place to measure the success of recruiting efforts. If
           future recruiting activities are not effective, the agency could be unable to meet hiring
           goals, keep up with attrition, or hire the most qualified candidates.
       •   Measures necessary to assess the accuracy of retirement and other separation projections
           did not exist. As a result, the IRS’ ability to anticipate workforce changes that potentially
           involve the loss of key competencies was limited.



13
     See Appendix IX for examples of accomplishments reported by the Workforce of Tomorrow Task Force.
                                                                                                         Page 8
                          To Address Its Human Capital Challenge, the
                  Internal Revenue Service Needs to Focus on Four Key Areas



Because of the complexity of the IRS’ human capital challenge, budgetary constraints, and the
need to replace a large number of employees in the near future, IRS management can not afford
to spend time and resources on actions that are not productive. An evaluation mechanism is
necessary to determine if strategies are productive and, if not, to adjust the strategies as soon as
possible to improve results.
Actions the IRS Is Taking in the Area: The IRS developed three high-level performance
measures that align with two of the human capital strategies in its current strategic plan. The
three performance measures (employee engagement, effectiveness of recruitment, and the
new hire retention rate) will be used to track the progress of increasing employee engagement
and attracting and retaining outstanding diverse talent throughout the IRS.
In our opinion, these measures will provide some indication about the IRS’ effectiveness in
recruiting and retaining employees as a whole. However, IRS management must develop
detailed, lower-level measures. These measures should be designed to signal IRS management
as soon as possible as to whether initiatives are achieving their intended results, so that any
necessary adjustments can be made to improve results.

The IRS must build upon the momentum gained through its recent emphasis on
human capital issues
As noted in previous sections of this report, the IRS has recently increased its focus on human
capital issues. This includes the IRS Commissioner creating the Workforce of Tomorrow Task
Force to make an immediate impact on the IRS’ progress in addressing its human capital
challenge. In addition, the IRS 2009–2013 Strategic Plan was recently issued and incorporated
human capital strategies and high-level measures.
Notwithstanding these accomplishments, there is much                Successfully addressing the
work ahead. For example, IRS officials advised us that             human capital challenge will be
they were planning to develop detailed measures and plans           a long-term effort, and much
in the future to support the high-level strategies and                    work lies ahead.
measures released in the IRS 2009–2013 Strategic Plan.
In addition, IRS officials stated that they will release a
report later in Fiscal Year 2009 detailing initiatives and strategies developed by the Workforce of
Tomorrow Task Force. That report will be turned over to the IRS HCO and other business units
and functional offices within the IRS for implementation.
As the Workforce of Tomorrow Task Force disbands and the IRS 2009–2013 Strategic Plan
begins to be carried out, it will be important that the cross-functional efforts recently
demonstrated in discussing and acting upon human capital issues is not lost. In our opinion, the
IRS has taken many actions to address its human capital challenge. The IRS’ success in
addressing its human capital challenge will depend upon its ability to sustain the momentum it
has gained and build upon its recent human capital actions.

                                                                                              Page 9
                         To Address Its Human Capital Challenge, the
                 Internal Revenue Service Needs to Focus on Four Key Areas



Because we have made recommendations in our prior reports, we are not making
recommendations in this periodic assessment. However, due to the importance of human capital
management to the accomplishment of the IRS’ mission and the long-term nature of the human
capital challenge, we will continue to monitor the IRS’ progress in addressing this challenge.




                                                                                       Page 10
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the IRS’ actions in addressing its human capital1 challenge.
Our assessment was based upon prior TIGTA and GAO reports and took into account current
efforts underway at the IRS. To accomplish this objective, we:
I.      Determined what recent observations were made about the IRS’ and the Federal
        Government’s progress in addressing the human capital challenge.
        A. Reviewed prior TIGTA and GAO audit reports from July 2007 to
           April 2009 that address human capital processes within the Human Capital
           Assessment and Accountability Framework2 and identified actions taken and planned
           by IRS management.
        B. Performed research (i.e., GAO reports, news articles, and other Federal agency’s
           audit reports from Fiscal Year 2008 to February 2009) and determined whether other
           Federal agencies made similar progress and/or had similar issues in meeting their
           human capital challenges.
        C. Reviewed IRS Oversight Board reports and other documents from January 2007
           through March 2009 regarding the Board’s observations about the IRS’ human capital
           issues.
II.     Identified actions the IRS took in Fiscal Year 2009 to address its human capital challenge
        and any measures related to human capital.
        A. Interviewed IRS management to obtain the current status of IRS HCO actions, plans,
           and goals for addressing the human capital challenge.
        B. Determined what actions and plans the IRS Commissioner’s Workforce of Tomorrow
           Task Force took and developed to address the agency’s human capital challenge.
        C. Obtained and reviewed the IRS’ current data, projections, and goals related to its
           human capital.

1
  Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
2
  The Framework was established by the Unites States Office of Personnel Management. The Framework provides
consolidated guidance for agencies to transform human capital management and understand what is to be done, how
it can be done, and how to gauge progress and results. It also presents the expectations that guide the agency’s
assessment of human capital efforts. This Framework consists of six standards for success or the results to be
achieved: strategic alignment, workforce planning and deployment, leadership and knowledge management,
results-oriented performance culture, talent, and accountability. See Appendix VIII for more information.
                                                                                                       Page 11
                         To Address Its Human Capital Challenge, the
                 Internal Revenue Service Needs to Focus on Four Key Areas



III.   Identified overarching issues the IRS must focus upon to effectively address its human
       capital challenge.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. While part of this review was
limited to reviewing and assessing the results of prior audits, part of our review involved
determining how the IRS was currently addressing its human capital challenge and whether there
were any overarching issues the IRS must focus upon. For this portion of the audit, we
determined that the following internal controls were relevant to our audit objectives: the Human
Capital Assessment and Accountability Framework, the IRS 2009–2013 Strategic Plan, the
Workforce of Tomorrow Task Force activities and reporting, and the development of human
capital measures. We evaluated these controls by interviewing management and reviewing
documentation.




                                                                                        Page 12
                        To Address Its Human Capital Challenge, the
                Internal Revenue Service Needs to Focus on Four Key Areas



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Acting Audit Manager
Julia Moore, Lead Auditor
John W. Baxter, Senior Auditor
Deadra M. English, Senior Auditor
David F. Allen, Program Analyst




                                                                                  Page 13
                        To Address Its Human Capital Challenge, the
                Internal Revenue Service Needs to Focus on Four Key Areas



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Director, Workforce Initiatives C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
IRS Chief Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Director, Communications and Liaison, Small Business/Self-Employed Division
       SE:S:CLD:PSP:GTL
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Senior Technical Advisor, IRS Chief Human Capital Officer OS:HC




                                                                                     Page 14
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



                                                                                               Appendix IV

                         Trends Regarding the
                  Internal Revenue Service Workforce

As part of our ongoing monitoring and reporting of the IRS’ efforts to address its human capital1
challenge, we have collected workforce trends in the areas of retirement eligibility, new recruit
attrition rates, employee job satisfaction, and employee engagement. Since the accuracy of these
IRS-provided statistics did not affect the accomplishment of our audit objective, we did not
verify their accuracy.

Retirement Eligibility for All Employees and Managers
Eighteen percent of the total IRS workforce will be eligible to retire by October 2010. As
Figure 1 shows, through September 2009 more than 15,000 IRS employees will be eligible to
retire, with approximately an additional 4,000 employees reaching retirement age each year for
the next 5 years.
                           Figure 1: IRS Employees Eligible to Retire
                    Fiscal
     Total          Year           Fiscal          Fiscal          Fiscal          Fiscal          Fiscal
    Workforce       20092         Year 2010       Year 2011       Year 2012       Year 2013       Year 2014
   105,622          15,070          3,941           3,970          3,935           4,261         4,473
Source: Data as of February 14, 2009, provided by the IRS HCO Strategic Planning and Measures Division.

Figure 1 includes all IRS employees (including managers). Figure 2 provides a breakout of just
the number of managers reaching retirement age each year for the next 5 years.
Figure 2 shows a large number of executives and managers are eligible to retire this fiscal year,
and an average of 488 additional executives and managers will become retirement eligible in
each of the next 5 fiscal years. An alarming percentage of IRS leadership responsible for setting
policy and providing direction for the agency will be eligible for retirement by Fiscal Year 2014.
Currently, 104 (36 percent) of 291 IRS executives are eligible to retire this fiscal year, with an
additional 91 (31 percent) of 291 becoming eligible over the next 5 years. Overall, the IRS could
lose 195 (67 percent) of its executives by Fiscal Year 2014.


1
 Human capital is used to describe the skills, abilities, and contributions of the employees in an agency.
2
 Totals in the “Fiscal Year 2009” column include employees who have or will be eligible for optional retirement (a
combination of age and years of service) by September 30, 2009. Subsequent fiscal year column totals include only
managers and employees who will be eligible in the subsequent fiscal years listed (October 1–September 30).
                                                                                                         Page 15
                              To Address Its Human Capital Challenge, the
                      Internal Revenue Service Needs to Focus on Four Key Areas



                             Figure 2: IRS Managers Eligible to Retire
                                              Fiscal      Fiscal      Fiscal      Fiscal      Fiscal      Fiscal
       Management            Total            Year        Year        Year        Year        Year        Year
         Level              Managers          2009        2010        2011        2012        2013        2014
         Executives             291            104          24           9          20          19          19

       Senior Managers         1,579           422         100       107         102       119          99
         Department
          Managers              382             53          14        23          20        16         25
         Front-Line
          Managers             6,848          1,369        365       316         336       329         378
         Cumulative
            Totals             9,100          1,948       2,451     2,906       3,384     3,867       4,388
                     3
       Annual Totals                                       503       455         478       483         521
    Source: Data as of February 14, 2009, provided by the IRS HCO Strategic Planning and Measures Division.




3
 To determine the annual totals of additional employees eligible to retire during each fiscal year, we computed the
net change in the cumulative totals from one year to the next.
                                                                                                           Page 16
                                To Address Its Human Capital Challenge, the
                        Internal Revenue Service Needs to Focus on Four Key Areas



New Recruit Attrition Rates
Due to the opportunity the IRS has to reshape its workforce during an era where many baby
boomers4 are eligible to retire, it will be important for the IRS to observe and react to how many
new recruits leave the IRS within their first few years of employment. As noted in Figures 3
and 4, new employees are generally leaving the IRS at a quicker rate than a few years ago.
                        Figure 3: IRS New Recruit First Year Attrition Rates
                                 (Fiscal Years 2005 Through 2008)


    18%

    16%
                                                                                                              17.2%
     14%                                                                       15.6%
                       13.8%
     12%
                                                  11.9%
     10%

      8%

      6%

      4%

       2%

       0%

              Fiscal Year 2005
                                        Fiscal Year 2006
                                                                     Fiscal Year 2007
                                                                                                   Fiscal Year 2008

            Percentage of employees in mission critical occupations who left the IRS within the first year of employment

    Source: IRS Human Capital Office Business Performance Review Report, 4th Quarter, Fiscal Year 2008.

    As shown in Figure 3, in Fiscal Years 2007 and 2008, over 15 percent of new recruits left the
    IRS within the first year of employment.




4
 Baby boomers are persons born during a baby boom, especially one born in the United States between 1946 and
1965.
                                                                                                                           Page 17
                            To Address Its Human Capital Challenge, the
                    Internal Revenue Service Needs to Focus on Four Key Areas



                  Figure 4: IRS New Recruit Second Year Attrition Rates
                             (Fiscal Years 2005 Through 2008)


  25%



  20%

                                                                                                           20.9%
                                               17.7%
  15%

                                                                            15.2%
                     12.0%
   10%



    5%



    0%

           Fiscal Year 2005
                                      Fiscal Year 2006
                                                                   Fiscal Year 2007
                                                                                                 Fiscal Year 2008

           Percentage of employees in mission critical occupations who left the IRS within two years of employment

 Source: IRS Human Capital Office Business Performance Review Report, 4th Quarter, Fiscal Year 2008.

As shown in Figure 4, about 21 percent of the employees hired in Fiscal Year 2006 left the IRS
by Fiscal Year 2008.




                                                                                                                     Page 18
                           To Address Its Human Capital Challenge, the
                   Internal Revenue Service Needs to Focus on Four Key Areas




Employee Job Satisfaction
Job satisfaction is a key statistic. Generally, the more satisfied employees are with their jobs, the
more likely they are to perform well. As noted in Figure 5, job satisfaction among
IRS employees has been increasing over the last several fiscal years.
       Figure 5: IRS Job Satisfaction Rates (Fiscal Years 2005 Through 2008)
 74%


 72%


 70%


 68%


 66%


 64%


 62%


 60%
           Fiscal Year 2005         Fiscal Year 2006         Fiscal Year 2007         Fiscal Year 2008

Source: IRS Human Capital Office Business Performance Review Report, 4th Quarter, Fiscal Year 2008.




                                                                                                      Page 19
                           To Address Its Human Capital Challenge, the
                   Internal Revenue Service Needs to Focus on Four Key Areas




Employee Engagement
Employee engagement is the degree of employees’ motivation, commitment, and involvement in
the mission of the organization. It is measured on a scale of 1 to 5. IRS management began
measuring employee engagement in Fiscal Year 2007. As noted in Figure 6, employee
engagement increased from 3.66 to 3.72 from Fiscal Year 2007 to Fiscal Year 2008.


       Figure 6: IRS Employee Engagement Scores (Fiscal Years 2007 and 2008)

5.00


4.50


4.00


3.50


3.00


2.50


2.00


1.50


1.00
                     Fiscal Year 2007                               Fiscal Year 2008

Source: IRS Human Capital Office Business Performance Review Report, 4th Quarter Fiscal Year 2008.




                                                                                                     Page 20
                         To Address Its Human Capital Challenge, the
                 Internal Revenue Service Needs to Focus on Four Key Areas



                                                                                Appendix V


   Government Accountability Office Human Capital
     Reports Researched As Part of This Review

The following 23 GAO reports were researched as part of this audit to determine whether the
IRS’ human capital issues were similar to those experienced by other agencies. As noted in the
following reports, Strategic Human Capital Management is a risk throughout the Federal
Government.
Office of Personnel Management: Opportunities Exist to Build on Recent Progress in Internal
Human Capital Capacity (GAO-08-11, dated October 2007).
United States Government Accountability Office: Making Human Capital Transformation a
Reality: Lessons Learned From GAO’s Experience (GAO-08-299CG, dated November 2007).
United States Government Accountability Office: Human Capital Initiatives and Additional
Legislative Authorities (GAO-08-573T, dated March 2008).
Department of Homeland Security: Progress Made in Implementation of Management
Functions, but More Work Remains (GAO-08-646T, dated April 2008).
Older Workers: Federal Agencies Face Challenges, but Have Opportunities to Hire and Retain
Experienced Employees (GAO-08-630T, dated April 2008).
Centers for Disease Control and Prevention: Human Capital Planning Has Improved, but
Strategic View of Contractor Workforce Is Needed (GAO-08-582, dated May 2008).
Human Capital: Transforming Federal Recruiting and Hiring Efforts (GAO-08-762T, dated
May 2008).
Human Capital: Corps of Engineers Needs to Update Its Workforce Planning Process to More
Effectively Address Its Current and Future Workforce Needs (GAO-08-596, dated May 2008).
Social Security Administration Field Offices: Reduced Workforce Faces Challenges as Baby
Boomers Retire (GAO-08-737T, dated May 2008).
Equal Employment Opportunity Commission: Sharing Promising Practices and Fully
Implementing Strategic Human Capital Planning Can Improve Management of Growing
Workload (GAO-08-589, dated June 2008).
Pension Benefit Guaranty Corporation: A More Strategic Approach Could Improve Human
Capital Management (GAO-08-624, dated June 2008).

                                                                                        Page 21
                         To Address Its Human Capital Challenge, the
                 Internal Revenue Service Needs to Focus on Four Key Areas



Human Capital: Selected Agencies Have Implemented Key Features of Their Senior Executive
Performance-Based Pay Systems, but Refinements Are Needed (GAO-08-1019T, dated
July 2008).
United States Capitol Police: Progress Made in Addressing Prior GAO Recommendations on
Administrative and Management Operations (GAO-08-1000T, dated July 2008).
Human Capital: Department of Defense Needs to Improve Implementation of and Address
Employee Concerns About Its National Security Personnel System (GAO-08-773, dated
September 2008).
Pension Benefit Guaranty Corporation: Improvements Needed to Address Financial and
Management Challenges (GAO-08-1162T, dated September 2008).
Secure Border Initiative: Observations on Deployment Challenges (GAO-08-1141T, dated
September 2008).
United States Agency for International Development Acquisition and Assistance: Actions
Needed to Develop and Implement a Strategic Workforce Plan (GAO-08-1059, dated
September 2008).
United States Postal Service: New Delivery Performance Measures Could Enhance Managers’
Pay for Performance Program (GAO-08-996, dated September 2008).
Department of Homeland Security: A Strategic Approach Is Needed to Better Ensure The
Acquisition Workforce Can Meet Mission Needs (GAO-09-30, dated November 2008).
Results-Oriented Management: Opportunities Exist for Refining the Oversight and
Implementation of the Senior Executive Performance-Based Pay System (GAO-09-82, dated
November 2008).
Department of Veterans Affairs Vocational Rehabilitation and Employment: Better Incentives,
Workforce Planning, and Performance Reporting Could Improve Program (GAO-09-34, dated
January 2009).
Human Capital: Opportunities Exist to Build on Recent Progress to Strengthen Department of
Defense’s Civilian Human Capital Strategic Plan (GAO-09-235, dated February 2009).
Human Capital: Improved Implementation of Safeguards and an Action Plan to Address
Employee Concerns Could Increase Employee Acceptance of the National Security Personnel
System (GAO-09-464T, dated April 2009).




                                                                                     Page 22
                         To Address Its Human Capital Challenge, the
                 Internal Revenue Service Needs to Focus on Four Key Areas



                                                                             Appendix VI

  Treasury Inspector General for Tax Administration
       Human Capital Reports Considered As
                Part of This Review

The following eight TIGTA audit reports were considered when forming our opinions on the
progress of the IRS in addressing its human capital challenge.
The Internal Revenue Pay-for-Performance System May Not Support Initiatives to Recruit,
Retain, and Motivate Future Leaders (Reference Number 2007-10-106, dated July 3, 2007).
A More Strategic Approach Could Enhance the Workers’ Compensation Program
Return-to-Work Efforts (Reference Number 2008-30-056, dated March 12, 2008).
Lack of Compensation for Unused Sick Leave at Retirement Has Contributed to Higher Use by
Employees in the Federal Employees Retirement System (Reference Number 2008-30-093, dated
April 24, 2008).
Progress Has Been Made, but Important Work Must Be Completed to Ensure Timely
Identification of Future Leaders (Reference Number 2008-10-132, dated June 26, 2008).
A More Strategic and Consistent Approach to Estimating Retirements and Other Separations Is
Needed to Better Plan for Future Human Resource Needs (Reference Number 2008-10-169,
dated August 29, 2008).
An Agency-Wide Recruitment Strategy and Effective Performance Measures Are Needed to
Address Future Recruiting Challenges (Reference Number 2009-10-025, dated
February 23, 2009).
Workforce Planning Efforts Are Hindered by a Lack of Comprehensive Information on Employee
Skills Levels (Reference Number 2009-10-041, dated February 24, 2009).
To Prevent the Possible Widespread Abuse of Religious Compensatory Time, Additional
Controls Are Needed (Reference Number 2009-IE-R002, dated February 27, 2009).




                                                                                        Page 23
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



                                                                                             Appendix VII

  Internal Revenue Service Human Capital Office and
      Embedded Offices Organizational Structure

     Figure 1: Embedded Human Capital Offices Within the Business Units and
                 the IRS Human Capital Office Organizational Chart

                                                                   Commissioner of                   Workforce
                                                                   Internal Revenue             Initiatives, Director




                                      Services and                                                  Operations
                                     Enforcement,                                                    Support,
                                        Deputy                                                       Deputy
                                     Commissioner                                                  Commissioner




  Large and Mid-       Tax Exempt and           Small Business/           Wage and                 IRS Human
   Size Business         Government             Self-Employed            Investment               Capital Office,
     Division,         Entities Division,          Division,              Division,               Chief Officer/
  Commissioner/         Commissioner/           Commissioner/           Commissioner/             Deputy Officer
      Deputy                Deputy                  Deputy                 Deputy
  Commissioner          Commissioner             Commissioner           Commissioner



 Management and        Human Resources            Strategic              Strategy and
 Finance Division,         Office,             Management of           Finance Division,
     Director             Director            Assets, Resources,           Director
                                              & Talent Human
                                               Capital Office,
                                                  Director



  Human Capital                                                         Human Capital
  Management,                                                              Office,
    Director                                                              Director



Source: IRS Intranet web site. Various organizational charts were combined to reflect only the human capital
offices.


                                                                                                         Page 24
                          To Address Its Human Capital Challenge, the
                  Internal Revenue Service Needs to Focus on Four Key Areas



                                                                               Appendix VIII

    The Office of Personnel Management’s Human
  Capital Assessment and Accountability Framework

The United States Office of Personnel Management established a Human Capital Assessment
and Accountability Framework to assist agencies in creating a citizen-centered, results-oriented,
market-based organization where employees possess the needed competencies and are deployed
strategically across the organization to enable agencies to fulfill their mission. This Framework
consists of five human capital systems and six Standards for Success that together provide a
consistent, comprehensive representation of human capital management for the Federal
Government. Figure 1 is a visual representation of the five human capital systems outlined
within the Human Capital Assessment and Accountability Framework.
                          Figure 1: Five Human Capital Systems




             Source: Human Capital Assessment and Accountability Framework.




                                                                                          Page 25
                          To Address Its Human Capital Challenge, the
                  Internal Revenue Service Needs to Focus on Four Key Areas



Figure 2 shows the six Standards for Success outlined within the Human Capital Assessment and
Accountability Framework.
                  Figure 2: Six Human Capital Standards for Success


                           Human Capital Standards for Success

             Workforce  Leadership  Results-
  Strategic  Planning      and      Oriented
                                                                  Talent   Accountability
  Alignment    and      Knowledge Performance
            Deployment Management   Culture

 Source: Human Capital Assessment and Accountability Framework.




                                                                                     Page 26
                             To Address Its Human Capital Challenge, the
                     Internal Revenue Service Needs to Focus on Four Key Areas



                                                                                        Appendix IX

           Workforce of Tomorrow Task Force Teams
                and Sample Accomplishments

The IRS Commissioner formed the Workforce of Tomorrow Task Force in September 2008 to
address recruitment and retention issues so that the IRS has the necessary leadership and
workforce in place to address future challenges. As our fieldwork was ending, the Task Force
was preparing a report that would detail initiatives and strategies it developed that would be
turned over to the IRS HCO and other functional offices within the IRS for implementation.

Workforce of Tomorrow Task Force Teams
Figure 1 provides the names of the six Workforce of Tomorrow Task Force teams, as well as
their areas of focus.
        Figure 1: Workforce of Tomorrow Task Force Teams and Focus Areas

Task Force Team                               Area of Focus
Valuing and Retaining Our People              Ensuring meaningful recognition, employee
                                              development, and strategies to retain the best talent
Enhancing the Role of Managers                Developing strategies to assist managers in mentoring,
                                              leading, and developing colleagues while addressing
                                              administrative burden
Attracting the Best                           Developing enhanced recruiting and career progression
                                              strategies
Streamlining the Hiring Process               Improving processes, automation, and policies to reduce
                                              the time it takes to fill positions
Growing Future Leaders                        Enhancing the leadership succession planning processes
                                              and development opportunities
Creating a Dynamic People Strategy            Building a real-time, flexible workforce plan that takes
                                              into account IRS business objectives and
                                              internal/external trends
Source: Executive briefing provided by the IRS.




                                                                                                 Page 27
                            To Address Its Human Capital Challenge, the
                    Internal Revenue Service Needs to Focus on Four Key Areas



Examples of Workforce of Tomorrow Task Force Accomplishments
Figure 2 provides a listing of examples of accomplishments from the Workforce of Tomorrow
Task Force, as reported by the Task Force.1
    Figure 2: Sample of Workforce of Tomorrow Task Force Accomplishments

Workforce of Tomorrow Task Force Team                    Sample Accomplishments
Valuing and Retaining Our People                         Creating a Recognition Strategy, Career
                                                         Development Strategy, and Sense of
                                                         Community Strategy
Enhancing the Role of Managers                           Creating a Burden Reduction Strategy and a
                                                         Prestige Strategy
Attracting the Best                                      Creating and standing up a centralized
                                                         recruiting office and creating a corporate
                                                         recruiting strategy with local support and
                                                         involvement
Streamlining the Hiring Process                          Streamlining the five-step hiring process and
                                                         reducing the need for applicants to submit
                                                         multiple applications for certain positions
Growing Future Leaders                                   Piloting an accelerated readiness program and
                                                         analyzing the IRS’ mobility policy
Creating a Dynamic People Strategy                       Implementing an IRS-wide attrition model and
                                                         developing an IRS-wide workforce planning
                                                         tool
Source: Workforce of Tomorrow Task Force status report dated June 15, 2009, from the Workforce of Tomorrow
Task Force web site.




1
 Since implementation of many of the strategies and initiatives developed by the Workforce of Tomorrow Task
Force was still underway as our audit was ending, we did not validate the Task Force’s accomplishments.
                                                                                                      Page 28
